DOCKET NUMBER;

* p nn
/?• /$r'-.; r~',(ip O -1

I

i,.

SUPREME COURT OF THE UNITED STATES K U V /“;
(Term: October 2019-2020)

PAUL M. POUPART

r
I

•

I

t ] 1J V i ^

supreme co’-"1' u s(.1.3

(Petikioji&r) 7 *-^0
versus

1

OF THF. CIXRK.

(Respondent)
JEFFREY LANDRY, Attorney General of Louisiana; JAMES LEBLANC,
Secretary - Louisiana Department of Public Safety & Corrections;
JON GEGENHEIMER, Clerk of Court - 24th Judicial District Court;
and CORNELIUS REGAN, Judge - 24th Judicial District Court.
ON PETITION FOR A WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS, FIFTH CIRCUIT
No. 19-31017
PETITION FOR WRIT OF CERTIORARI

Louisiana Department of Corrections:
Elayn Hunt Correctional Center
Inmate, Mr. Paul M. Poupart, #357073
6925 Highway 74, P.O. Box 174
Saint Gabriel, Louisiana 70776
225.642.3306
Email: 00357073®jpay.com
(Counsel of Record)

1

a

QUESTIONS' PRESENTED FOR REVIEW
A.

Whether the standards in Heck v. Humphrey, should continue
to apply to state convictions which are deemed unconstitu­
tional and whether the invalidation of a state statute
gives a state prisoner a civil right to challenge the
state punishment imposed from a federal court under the
Supremacy Clause of the United States Constitution?

B.

Whether the federal statute of Title 42 U«S.C« S, 1983«
is constitutional towards state prisoners in a suit
challenging the duration of confinement based on the
Supremacy Clause and the federal objective to enforce
the First Amendment by the Acts of Congress?

C.

Whether the decision of Seals v« McBee, 898 F.3d 587 (2018),
is applicable to the State of Louisiana incorporating a
violation of the First Amendment to the Constitution?

2

a

PARTIES TO THE PROCEEDING
The petitioner is Paul M. Poupart, the plaintiff and the
t

plaintiff/appe11ant in the Courts below. The respondent is

«

Jeffrey Landry, Attorney General of Louisiana; James LeBlanc,
Secretary - La. Department of Public Safety & Corrections;
Jon A. Gegenheimer, Clerk of Court - 24th Judicial District
Court; and Cornelius Regan, 24th Judicial District Court Judge;
of whom are the defendant and the defendants/appellees in the
Courts below.

United States District Court
Middle District of Louisiana
Case No. 19-CV-328-BAJ-EWD
United States Court of Appeals
Fifth Judicial Circuit
Case No. 19-31017

Received
JUL 2 9 2020
supreEm°FcTourtLhqK

3

/I

CORPORATE: DISCLOSURE STATEMENT
I, Paul M. Poupart, do not own any parent corporation nor
‘do I own any publicly held corporation or 10$ of any stock in
these United States of America.

Mr. Paul M. Poupart
(Petitioner)

4

TABLE OP CONTENTS

Cover page............................................
Questions Presented For Review....
Parties to the Proceeding................
Corporate Disclosure Statement....
Table of Contents....................... ..

Table of Authorities.........................
Citations of Official Reports.....
Basis for Jurisdiction.....................
Constitutional Provisions Involved
Concise Statement of the Case........
Direct Arguments.................................
Conclusion w/Rlief Sought................
Proof of Service.................................
Appendix................................................

5

1
2

3
4
5
6
7
7
8
9
10-28
28
29
A1

TABLE OF AUTHORITIES
State Lav/s:
LSA-R.S. 14:122
La.C.Cr.P • t Article 930.8(A)(2)
State Gases:
Barron v. La. Dept, of Publi Safety,
397 So.2d 29 (La. App. 2 Cir. 1981)
Poupart v. Landry, et al • >
2019 U.S. Dist. LEXIS 197673
Poupart v. Landry, et al.,
No. 19-31017, (5th Cir. 6/5/2020)
Federal Laws:
U.S. Constitution,
U.S. Constitution, Art. 1, S. 8
USConstitution, Art. Ill, S.l
U.S. Constitution, Article VI
U.S. Constitution, First Amendment
U.S. Constitution, Fifth Amendment
U.S. Constitution, Fourteenth Amendment
Title 28 USC, 1254(1)
Title 28 USC, 1291
Title 28 USC, 1331
Title 28 USC, 1651
Title 28 USC, 2254
Title 42 USC, 1983
FRAP, Rule 44(a)
Habeas Rule 9(b)
Federal Cases:
Ableman, Booth 62 U.S. 506 (1859)
ANR Pipeline Co., Michigan P.S.C.,
608 F. Supp. 43 (WD Mich. 1984)
Conley, Gibson 355 U.S. 41 (1957)
Danforth, Minnesota 552 U.S. 264 (2008)
Fisher, Baker 203 U.S. 174 (1906)
Florida, Mellon 273 U.S. 12 (1927)
Gibbons, Ogdon 22 U.S. 1 (1824)
Griffith, Kentucky 479 U.S. 314 (1987)
Harris v. Nelson, 394 U.S. 286 (1969)
Heck v. Humphrey, 512 U.S. 477 (1994)
Kentucky, Graham 105 S.Ct. 3099 (1985)
Linkletter, Walker 85 S.Ct. 1731 (1965)
Mackey, United Stages 91 S,Ct. 1160 (1971)
Obergefell, Hodges (2015)

6

Table of Authorities (continued):
Preiser, Rodriguez 411 B.S. 475 (1973)
Penry, Lynaugh 109 S.Ct. 2934 (1989)
Rhewark, Shaw 628 P.2d 297 (5th Cir 1980)
Rouse, Benson 193 F.3d 936 (8th Cir. 1999)
Sanders, Bennett 148 F.2d 19 (DC Cir 1945)
United States, Supreme Court of NW
824 P.3d 1263 (2016)
Wilwording, Swanson 404 U.S. 249 (1971)
Yates, Aikem 108 S.Ct. 534 (1988)
Zivotofsky, Clinton 132 S.Ct. 1421 (2012)
Other:
Meador, "Habeas Corpus and the Retroactivity
Illusion”,"50 Va.L.Rev. 1115 (1964)
"Seals v. McBee. 898 F.3d 587 (2018)

6(b)

CITATIONS OF OFFICIAL REPORTS
Poupart v. Landry, et al JL» 2019 U.S. Diet. LEXIS 197673
Poupart v, Landry, et al u No. 19-31017, (5th Cir. 6/5/2020)
BASIS FOR JURISDICTION
The basis for this jurisdiction in this one Supreme Court
is found in Title 28 U.S.C. S, 1254(l). which states:
Cases in the courts of appeal may be reviewed by the
Supreme Court by the following methods: (l) By writ
of certiorari granted upon the petition of an£ party
to any civil or criminal case, before or after ren­
dition of judgment or decree;
On June 5, 2020, the Clerk of Court - Honorable, Mr. Lyle
W. Gayce, for the United States Court of Appeals - Fifth Cir­
cuit, issued the mandate of the Honorables, JOLLY, JONES, &
SOUTHWICK, denying petitioner’s appeal and affirming the de­
cision of the federal district court on October 24, 2019.
Petitioner has not sought any rehearing due to the deci­
sion to stand by precedent.
Now comes the petitioner on his application/petition for
writ of certiorari to the U.S. Court of Appeals, Fifth Circuit;
respectively.

7

CONSTITUTIONAL PROVISIONS INVOLVED
The First Amendment to the Constitution states:
'Congress shall make no law respecting an establishment
of religion, or prohibiting the free exercise thereof; or
abridging the freedom of speech • • •
The Fourteenth Amendment to the Constitution states:
'No State shall make or enforce any law which shall abridge
the orivileges or immunities of citizens of the United
States; nor shall any State deprive any person of life,
liberty, or property, without due process of law • • • '
Article III. Section 1. of the Constitution states:
'The judicial Power of the United States, shall be vested
in one supreme Court, and in such inferior Courts as the
Congress may from time to time ordain and establish.
Article V.I, of the Constitution states:
'The Senators and Representatives before mentioned, and
the Members of the several State Legislatures, and all
executive and judicial Officers, both of the United
States and of the several States-, shall be bound by
Oath or Affirmation, to support this Constitution + • • '
Title 42 U.S.C. S. 1983, is set forth in the body of this
petition.

8

CONCISE STATEMENT OF THE CASE
The Plaintiff, Mr. Paul Poupart, filed a 1983, civil action
against the Attorney General for the State of Louisiana, the
Secretary of the Louisiana Department of Public Safety &
Corrections, the Clerk of the 24th Judicial District Court —
Parish of Jefferson, and the Judge of the 24th Judicial District
Court to challenge the duration of his confinement based on
the U.S. Court of Appeals, Fifth Circuit decision in Seals v,
McBee, 898 F.3d 587 (2018), declaring the provisions of
Louisiana's criminal statute R.S. 14^122, Public intimidation,
as unconstitutional and in violation of the First Amendment to
to the Constitution. Plaintiff sought a writ of release in the
United States District Court for the Middle District of Louisi­
ana and was denied release based on this Count's precedent of
Heck v. Humphrey, 512 U.S. 477 (1994).
Today the Petitioner challenges whether the standards in
Heck are appropriate and should continue to apply to state
prisoners whose criminal statutes are invalidated by a federal
judiciary. Petitioner also seeks to challenge the federal pro­
visions ofi Title 42 U.S.C. S. 1983. and whether it is unconsti­
tutional as—applied to state prisoners challenging their dura­
tion of 'vconf inement • Petitioner in his afterthought also seeks
to question this Court whether Seals v. McBee, is applicable
to the State of Louisiana, and whether it is retroactive to the
Petitioner's cause.
The basis for jurisdiction in the Court of first instance
is found in Title 28 U.S.C. S. 1331» which states that the dist­
rict courts are vested with original jurisdiction over all civil
actions arising under the Constitution.
For these reasons Petitioner is>at this Court's supreme
Bench to review and clarify Petitioner's rights to the First
Amendment. May these statements be accepted as the statements
of this case.

9

DIRECT ARGUMENTS
Today, Petitioner - Paul M. Poupart, will argue why this
Supreme Court should grant certiorari in this case and to con­
sider whether: (l) the federal appellate court properly ruled
on the question of federal law; (2) whether the subject-matter
of this action is completely comparable to Heck v. Humphrey,
512 U.S. 477 (1994); (3) whether Seals v. McBee, 898 F.3d 587
is applicable to the State of Louisiana; (4) whether the pro­
visions of Title 42 U.S.C. S. 1983, and its judicial history
are constitutional as-applied to state prisoners; (5) whether
a state prisoner may challenge the duration of his confinement
after his conviction becomes final under an unconstitutionally
overbroad state" statute (R.S. 14:122); and (6) whether the
federal! appellate court correctly decided an important question
of federal law that has not been decided but should be settled
by this Supreme Court.
Question #1: Whether the standards in Heck v. Humphrey, should
continue to apply to state convictions which are
deemed unconstitutional and whether the invalid­
ation of a state statute gives a state prisoner
a civil right to challenge the state punishment
imposed from a federal court under the Supremacy
Clause of the U.S. Constitution?
To begin this argument Petitioner would like to present
the provisions of U.S. Constitution, Article III, Section 1,
which states:
'The judicial Power of the United States, shall be vested
in one supreme Court, and in such inferior Courts as the
Congress may from time to time ordain and establish.'
On August 3, 2018, the U.S. Court of Appeals, Fifth Circuit
declared that Louisiana's criminal statute of Public intimida­
tion is unconstitutional towards the First Amendment as opposed
to 'threats'. Seals v. McBee, 898 F.3d 587 (2018).

10

On May 23, 2019, the Petitioner herein after referred to
as 'Poupart', filed a complaint in the U.S. District Court for
the Middle District of Louisiana pursuant to the March 1, 2019»
,,filing of an Application for Post-Conviction Relief, where the
state trial court declared LSA-R.S. 14:122, as constitutional.
Today Poupart seeks judicial review in this one Supreme
Court to clarify' whether Heck v. Humphrey, supra; should con­
tinue to apply to state convictions which are deemed unconsti­
tutional by the federal judiciary and whether Poupart had a
viable claim protected by the Supremacy Clause of the Constitu­
tion. See, ANR Pipeline Co • t v. Michigan Public Service Com..
608 P. Supp. 43 (WD Mich 1984).
The U.S. District Court and the U.S. Court of Appeals de­
cided that Heck was a bar to Poupart*s 1983 action against the
defendants named as parties.
In the appeal brief Poupart presented Supreme Justice
Souter's dictum which stated:
*A prisoner caught at the intersection of 1983 and the
habeas statute can still have his attack on the lawful­
ness of his conviction or confinement heard in federal
court, albeit one sitting as a habeas court; and,
depending on the circumstances, he may be able to ob­
tain 1983 damages... Under the Civil Rights Act of 1871,
the Federal Government has a right to set aside...action
of State authorities that deprives a person of his
Fourteenth Amendment rights; and absent such a statutory
policy, surely the common law can give us no authority
to narrow the broad language of 1983t which speaks to
deprivations of *any' constitutional rights, privileges,
or immunities, by 'every* person acting under color of
state law, and to which we have given full effect by
recognizing that 1983 provides a remedy to be broadly
construed, against all forms of official violation of
federally protected rights.'
(See, Heck v. Humphrey, supra.)
If the Federal Government has a right to set aside action
of the State authorities, how come the lower federal courts
did not recognize that Judge Regan was enforcing a law that is
and was a violation of the First Amendment? This abuse of dis­
cretion seems to undermine Supreme Justice Souter's dictum in

11

Heck.
In Wilwording v. Swanson. 404 U.S. 249s (1971) , the court
treated a habeas corpus petition by a state prisoner challeng­
ing the condition of confinement as a claim for relief under t
42 U.S.C, 1983. the Civil Rights Act.
As the District Court could have treated Poupart’s 1983
action as a habeas corpus request, consistent with Wilwording
and Supreme Justice Souter’s dictum in Heck-, it did not,
therefore, causing Poupart's liberty interests in’the First
Amendment to be denied again.
Poupart Is humbly at this Supreme Court's Bench to clarify
his constitutional rights to the First Amendment and his con­
stitutional right; to have the District Court sit as a habeas
court where the grounds raised in the 1983 action1 were new to
the court*-This fact undermines the dictum of this Supreme
Court in Heck and Poupart believes that Seals should have been
applied retroactively to his case by the state trial court
judge. The decisions in Kentucky v. Graham, 105 S.Ct. 3099
(1985), conditions that a trial judge's immunity is immaterial
-in 1983 actions.
That being the common law of this nation, it is even more
established in Rhewark v. Shaw, 628 F.2d 2@7 (5th Cir. 1980),
that a plaintiff can recover 1983 damages against absolute
immunity. Seeing this, it is evident that Poupart has been
denied the equal protection of the laws; Rouse v. Benson, 193
F.3d 936 (8th Cir, 1999).
The issue before this Supreme Court is whether Heck should
apply to Poupart's action. In Obergefell v. Hodges. (2015),
(citations omitted), Supreme Court Justice Kennedy stated:
'The nature of injustice is that we may not always see it
in our own times. The generation that wrote and ratified
the Bill of Rights and the 14th Amendment did not pre­
sume to know the extent of freedom in all of its dimen­
sions, and so they entrusted to future generations a
charter protecting the rights of 'all' persons to enjoy
a liberty as we learn its meaning. When new insight re­
veals discord between the Constitution's central pro-

12

tections' and a received legal stricture, a claim to
liberty must be addressed.•
If Supreme Justice Kennedy declared that a claim to libertymust ‘be addressed, then Poupart’s petition to this Court must
be addressed; if our Congress does not have the legislative
authority to supersede a Supreme Court decision constrying the
Constitution, how can Poupart's liberty towards the First Amendment be so ignored by the lower federal courts, who construed
IjSA—R.s»• 14:122. violates the First Amendment?
Poupart does not wish to relitigate his arguments to the
federal appellate court but, Heck did not seek any injunctive
relief nor did the petitioner in Heck seek release from custody.
The upshot of the Heck decision compared to Poupart’s is that
the petitioner in Heck was not seeking relief from a state
statute that had been invalidated by the federal judiciary;
causing Poupart's subject-matter in his 1983 action to be comparably opposite to the decision in Heck. (Please review the
appellate brief here.)
This fact is before this Court and Poupart requests that
this Supreme Court revisit Heck with Supreme Justice Souter’s
dictum for the Court and see that Poupart’s subject-matter is
quite different and should be resolved by this Court's Bench
today.
***

Continuing on, Poupart would like to take a moment and pre­
sent certain common law decisions that sponsor his standing in
this Court. May this Supreme Court follow Poupart's argument
with the decisions presented;
In 1824, it was opined that the Supremacy Clause invalidates
state laws that interfere with, or ar®. contrary to federal law,
See» Girons v, Ogdon, 22 U.S. 1, 9 Wheat. 1, 6 LEd 23 (1824).
(Poupart’s question to this Court is if this Clause invalidates
state laws that interefere with federal law, where is the
interest in federal laws by state judicial officers who
contradict the federal judiciary construction?)

13

In Ableman v. Booth, it was declared that the state is
sovereign within its territorial limits to certain extent, "but
that sovereignty is limited hy the Constitution; at 62 U.S. 506,
21 How. 506, 16 LEd 169 (1859).
(If Louisiana's trial courts sovereignty is limited by the
Constitution, should it recognize that its laws were federally
construed to violate the Constitution? And its duty is to
apply federal ,law on collateral reviews?)
In 1927, This Suprume Court determined that the Federal
Constitution'! and laws enacted under it prevail over laws of a
state in Florida vt Mellon, 273 U.S. 12, 47 S.Ct. 265, 71 LEd
5H.
(If this dedision is law, then how come the state trial court
judge chose to enter an order that violates the First Amendand the Fourteenth Amendment, although these provisions pre­
vail for Poupart on collateral review?)
***

The above decisions cause Poupart to question whether the
U.S. District Court and the U.S. Court of Appeals properly
ruled on the 1983 action and the question of federal law.
In Article VI. of the Constitution it states:
'The Senators and Representatives before mentioned and
the Members of the several State Legislatures, and all
executive and judicial ©fficers, both of the United
States and of the several States, shall be bound by
Oath or Affirmation, to support this Constitution • • •
If by oath, the judicial,officers of the United States are
bound to support the Constitution, it is confusingly odd that
a U.S. Court of Appeal who? invalidated a state statute did not
properly construe Poupart's action as a federal consti­
tutional right. If it invalidated the state statute for viol­
ation of vthe First Amendment, then it ton, could have sat as

14

a habeas court under Supreme Justice Souter’s dictum in Heck.
Because the appellate court chose not to sit as a habeas court
the decision to affirm the District Court’s ruling undermines
the protections under 1983 actions.
:In Conley v. Gibson. 355 U.S. 41, 78 S.Ct. 99, 2 LEd2d
80 (1957), it was determined that a dismissal for failure to
state a claim cannot be justified if the plaintiff could
prove a certain set of facts which would consider that genuine
issues are in dispute and these facts could support his claim
and entitlehim to relief. The District Court and the Court of
Appeals not once allowed Poupart this opportunity to. prove
without objection that there were some genuine issues of the
Constitution in dispute at the state trial court level. In
Title 42 U.S.C. S. 1983. it states:
’Every person who, under color of any statute, ordinance,
regulation, custom, or usuage, of anjr State or Territory
or the District of Columbia, subjects, or causes to be
subjected, any citizen of the United States or other
person within the jurisdiction thereof to the depriva­
tion of any rights, privileges, or immunities secured
by the Constitution and laws, shall be liable to the
party injured in an action at law, suit in equity, or
other proper proceeding for redress, except that in any
action brought against a judicial officer for an act or
omission taken in such officer’s judicial capacity, in­
junctive relief shall not be granted unless a declaratory
decree was violated or declaratory relief was unavailable..’
This statute according to Supreme Justice Souter in Heck,
speaks to deprivations of ’any* constitutional right by every
person acting under color of state law. In the decision by
Judge Cornelius Regan, He subjected Poupart to a deprivation
of his liberty interests in the First Amendment and this Court
recognized that 1983 provides a remedy to be broadly construed.

15

Was the U.S. District Court and the U.S. Court of Appeals’ de­
cision to deny Poupart his First Amendment right broadly constr­
ued or erroneously decided to be made comparable to Heck’s decree?
Again, in Supreme Justice Souter's dictum* He states that a
prisoner can have his attack' on the lawfulness of Ms confine­
ment heard on a 1983 action if, the Court, in its discretion,
sits as a habeas court. This was not done.
In Harris v. Nelson. 394 U.S. 286 (1969), this Supreme Court
stated:
'The habeas corpus jurisdiction and the duty to exercise
it being present, the courts may fashion appropriate
modes of procedure, by analogy to existing rules or
otherwise in conformity with judicial usuage.'
The duties of the U.S. District Court require this,' and it
js an inescapable obligation of the federal courts to not sit
as a habeas court under the All Writs Act, Title 28 U.S.C. S.
1651. In Preiser v, Rodriguez. 411 U.S. 475 (1973), this Court
determined :
•Habeas corpus rules are applicable to petitions by persons
in custody pursuant to a judgment of a state court • • •
and,
• • • the

essence of habeas corpus is an attack by a person
in custody upon the legality of that custody, and that
the traditional function of the writ ms to secure 'release'
from illegal custody.'
Albeit that Heck filed a 1983 complaint seeking monetary
damages from a wrongful conviction, Poupart was seeking to se­
cure his release from an unlawful confinement claiming he is in
custody in violation of the First Amendment. See, Seals, supra.
The question before this Supreme Court today is whether
Heck comparably applies to Poupart *s confinement afjrer a federal
judicial court declared that LSA-R.S. 14!122, is unconstitution­
al and violates the First Amendment.

16

If Supreme' Justice Souter opined that the common law can
give no authority to narrow the broad language of 1983 actions,
then it is imperative that this Court recognize its member’s
statements and consider the circumstances in Poupart's com­
plaint, the avoidanve of abusing the writ of habeas corpus,
and the decisions of the lower federal courts to not sit as a
habeas court. See, Wilwording, suera.
If this Supreme Court will now see, Sanders v. Bennett,
148 F.2d 19 (DC Cir. 1945), according to the caption of the
1983 action, it could have been treated asa claim for relief
under Rule 9(b), of Rules Governing Section 2254 Cases. Not­
withstanding other statutes, this petition sought habeas relief,
yet this government was reluctant to apply Supreme Justice
Souter's dictum and compare Poupart's First Amendment claim
to a meritless Heck claim.
In Fisher v. Baker. 203 U.S. 174 (1906), it was settled
that habeas corpus proceedings are civil in nature. If this
one federal government can treat a habeas petition as a 1983
petition, was it not unfair of the lower federal courts to not
treat Poupart's 1983 petition as a 2254 petition? See, Wilword­
ing v. Swanson, supra.
Poupart addresses these issues in the utmost respect for
the Constitution, and is aware that he has not obtained any
declaratory relief from state or federal courts concerning his
liberty interests in the First Amendment. With these decisions
and arguments Poupart believes that Heck should not continue,
to apply to state prisoners whose state punishments were invalid­
ated by the federal judiciary on common law decisions, not of
their own making, and encourage this Court to revisit Heck and
clarify to the lower courtss that Poupart has Irrought a 'new'
constitutional question of federal law to its benches and that
this case should be settled by affording Poupart the liberty
engrossed in the Fifth Amendment's Due Process Clause.
May this Court see the prejudice that has been afforded
Poupart in the proceedings leading to this application and

17

clarify whether Heck should apply to Poupart's confinement to­
day.
***

As stated earlier, Poupartl is questioning- whether a U.S.
Court of Appeals decision to declare a state statute unconsti­
tutional towards the First Amendment (invalidating the punish­
ment for a state statute) gives a state prisoner a civil' right
to challenge the confinement imposed under the Supremacy Clause
of the U.S. Constitution.
In Article III, of the Constitution, it spates that judicial
power can "be vested in inferior courts to this Supreme Court.
Congress ordained and established in Title 28 U.S.C. S, 1291.
that the U.S. Court of Appeals, Fifth Circuit shall have juris­
diction and judicial power over all appeals from all final de­
cisions of the district courts of the United States. This
judicial power of the U.S. Court of Appeals has been recognized
as a construction of the Supremacy Clause of the Constitution.
In this establishment, Poupart today, questions whether
the U.S. Court of Appeals, Fifth Circuit decision in Seals v.
McBee. (2018) - invalidated his puhishment for LSA-R.S. 14?122.
and whether this invalidation gives him a civil right to chall­
enge his state imposed punishment under a 1983 action, stemming
from the Supremacy Clause.
Again, in ANR Pipeline Co • t v. Michigan Public Service Com I)
608 F.Supp. 43 (WD Mich. 1984), this federal court declared that
the Supremacy Clause is not cognizable on 1983 claims, but,
those rights are protected under the 1983 action. If, in the
present case, the 1983 action preserves rights protected by the
Supremacy Clause, was it proper to deny Poupart's allegations
that the state court is subjecting him to a violation of a
federally protected right by considering that the Seals decision
is not binding on state courts although its constitutional doc­
trine was interpretated by an inferior court to this Supreme

18

Court.
Poupart is at the intersection in the law that demands a
clarification of his federally protected interests because 1983
actions give him a civil right to protection against official
violations of federal law. If the U.S. Court of Appeals deter­
mined that LSA-R.S. 14*122. is unconstitutional and violates
the First Amendment, Poupart presents the case of Mackey v.
United States. 91 S.Ct. 1160 (1971), where this Court establ­
ished that the matters of 'constitutional interpretation' are
beyong the powers of the criminal-law making authorities to
proscribe. If the state legislature cannot proscribe a consti­
tutional interpretation, then neither can the judicial officer
of the state. Poupart seeks to clarify his civil right to re­
dress the subjection of a deprivation of his federal rights by
the state court. Also with Mackey, in Griffith v. Kentucky.
107 S.Ct. 708 (1987), this Court held that a 'new' constitution­
al rule must be applied retroactively to all cases, whether state
or federal.
In the state court's decision to uphold the constitutionality
of its criminal statute it subjected Poupart to a violation of
his First Amendment rights as this Court would see in Seals;
and therefore, created a civil right under 1983 actions, to
challenge the official violation of federally protected rights,
as with Supreme Justice Souter's dictum in Heck.
Poupart's question to this Court is not one of ignorance
of the law but of constitutional doctrine and the requirement
Enforced on this government's judicial powers. (See, U.S. Const •»
Article I, Section 8.)
May this Court see this prejudice and clarify Poupart's
position today consistent with the 1983 protections
***

19

Question #2: Whether the
S. 1983. is
soners in a
confinement
the federal
ment by the

federal statute of Title 42 U.S.C.
constitutional towards state pri­
suit challenging the duration of
based on the Supremacy Clause and
objective to enforcethe First Amend­
Acts of Congress?

To begin this argument and contention Poupart would like
to present the case of United States v. Supreme Court of NW.
824 F.3d 1263 (2016), where it was determined that an appell­
ant may challenge the constitutionality of a statute by assert­
ing a facial challenge, an as-applied challenge, or both.
Today Poupart presents an as-applied challenge to the fed­
eral statute of Title 42 U.S.C. S. 1983: this challenge will
conceed that it may be constitutional in many of its applica­
tions, but that it is not constitutional under the particular
circumstances of this case. Poupart acknowledges that this
statute may have some permissable applications, but will argue
that its provisions are unconstitutional as it is applied to
state prisoners.
Title 42 U.S.C. S. 1983. provides:
’Every person who, under color of any statute, ordinance,
regulation, custom, or usage, of any State oi Territory
or the District of Columbia, subjectst or causes to be
subjected, any citizen of the United States or other
person within the jurisdiction thereof to the deprivation
of any rights, privileges, or immunities secured by the
Constitution and laws, shall be liable to the party in­
jured in an action at law, suit in equity, or other pro­
per proceeding for redress, except that in any action
brought against a judicial officer for an act or omission
taken in such officer's judicial capacity, injunctive
relief shall not be granted tinless a declaratory decree
was violated or declaratory relief was unavailable. For
the purposes of this section, any Act of Congress appli­
cable exclusively to the District of Columbia shall be
considered to be a statute of the District of Columbia.'

20

Your Horior(s), it tis not Poupart's intent to sew discord
among the Justices of this Court or to petition for something
that is not directly allowable to Mm by rule. See, FRAP, Rule
44(a).
The 1983 statute,ras-applied to state-prisohers seems unr
Poupart's First Amendment right to
constitutional towards
petition the government for a redress of his grievance against
the Attorneyrfieneral of Louisiana and the State trial court.
The judicial histories of this nation's precedents and
policies are too vast for Poupart to express to this Court to­
day. Poupart does however contend that the decision to bar a
state-prisoner from the 1983 action, whose action is civil as
is a 2254 action (See, Fisher v. Baker, supra.), is unconsti­
tutional as-applfed to state-prisoners.

In the First Amendment. Congress is prohibited from abridg­
ing the freedom' to petition the government for a redress of
grievances. In the 1983 provision, Congress excepted petitions
by stating:
• • • or other proper proceeding for redress • • •
This provision bars a state—prisoner from petitioning the
federal government for a redress of federally protected rights.
The most common, common law decision that supports this pro­
vision is Heck v. Humphrey. 512 U.S. 477 (1994); barring stateprisoners from seeking a redress under the 1983 protections.
This Court has given the decision that state—prisoners are
barred from seeking 1983 relief if that state-prisoner cannot
show that his convictions or sentence has been reversed or in­
validated by a states or federal court; thus, interpreting 1983»
as-applied to Poupart's case, to be in violation of the First
Amendment.
The First Amendment does not include a provision that ex­
cludes state-prisoners from seeking relief, however, the 1983
interpretation excludes state-prisoners from petitioning the

21

Government.
In the Fifth Amendment, it states that no person shall be
deprived of liberty without the cdue process of law. If this is
supreme law, 1983 and its interpretations has deprived Poupart ,
of his liberty to challenge his confinements, outside the dictum
of Supreme Justice Souter's statements in Heck,
’A prisoner caught at the intersection of 1983 and the
habeas statute can still have his attack on the lawful­
ness of his conviction or (confinement) heard in federal
court, albeit one sitting as a habeas court • • •
If a state-prisoner is barred from seeking a 1983 action
action because he cannot show that his sentence has been rever­
sed, but can show that the federal judiciary invalidated his
sentence by declaring in another case that LSA-R.S. 14*122,
violates the First Amendment, must Poupart abuse the great writ
of habeas corpus to petition the government; according to Heck?
Section 1983 was coded by Congress to enforce the law
against those who subject persons to the deprivations of any
federal rights and to provide a liability for these actions,
even official violations of protected rights; yet, 1983 has
been construed to bar state-prisoners from petitioning the
government if they cannot show their conviction was reversed.
Where is the right to petition? This act seems to wholly violate
the due process clause of the Fifth Amendment.
In Zivotofsky v. Clinton, 132 S.Ct. 1421 (2012), this Court
declared that:
'When an Act of Congress is alleged to conflict with the
Constitution, it is emphatically the province and duty
of the judicial department to say what the law is.'
Seeing this, Congress never required the government to en­
tertain a state-prisoner's suit when his sentence was invali­
dated by the federal judiciary, nor did Congress restrict a
suit at law if this sentence was obtained in violation of the
Constitution. But, Congress is prohibited from abridging the
freedom to petition the government, therefore, giving the pro-

22

vision of: 'or other proper proceeding for redress'; to be
unconstitutional as-applied to state-prisoners.
Bearing this logic and violation of the Fifth Amendment,
is 1983 unconstitutional as-applied in this case?
Although federal res judicata rules govern most applica­
tions to this Supreme Court, Poupart presents a 'new' consti­
tutional question of federal law that Heck does not proscribe;
whether 1983 is being constitutionally proscribed by the low­
er courts upon a subject-matter that is protected in 1983
actions. See, ANR Pipeline Co *.» supra.
In Linkletter v. Walker. 85 S.Ct. 1731 (1965), this very
Court declared that:
'Insofar as the general principles of retroactive and
prospective applications of an overruling decision are
concerned - no distinction is to be drawn between civil
and criminal litigation.’
This decision by this Court undermines the subject-matter
of Poupart's 1983 claim and has caused Poupart to be subjected
not once but tteLice to a violation of his federally protected
rights.
Does this Court not see the lower rulings as a double­
standard to deny a 1983 action and require a state-prisoner
to seek a 2254 action, after he has exhausted his first appli­
cation, when habeas proceedings are wholly prospective and
should be deemed incapable of involving any issues of retro­
active operation of an overruling decision? See, Meador,
"Habeas Corpus and the Retroactivity Illusion", 50 Va.L.Rev.
1115 (1964).
Although Petitioner is seeking a writ of certiorari on
his own as a citizen of the United States, he humbly presents
the fact that 1983 is unconstitutional as-applied to his case
and this 'new' question of federal law demands that this Court
clarify, amend, or modify the decision in Heck, to bring 1983
back into constitutional adherence for state-prisoners whose

23

sentence was prohibited by a federal appellate court. Seals;
supra.
In Seals, the U.S. Court of Appeals prohibited the State
of Louisiana from enforcing the punishments for LSA-R.S. 14^122,
and this fact is wholly operative to the state trial court
judge and the Attorney General of Louisiana, today.
May this Supreme Court revisit Heck and apply Poupart's
subject-matter in his 1983 complaint and find that 1983 is
unconstitutional to state-prisoners. See, Appellate Brief,
Case No. 19-31017, U.S. Court of Appeals, Fifth Circuit.
***

Question #3* Whether the dedision in Seals v. McBee, 898 F.3d
is applicable to the State of Louisiana incor­
porating a violation of the First Amendment to
the Constitution?
To begin this final argument, Poupart would like to pre­
sent the question of whether Seals v. McBee, is applicable to
the State of Louisiana on 1983 complaints.
Poupart presents this action to this Court to clarify where
Seals would be applicable to state-prisoners. In the Seals de­
cision, the U.S. Court of Appeals for the Fifth Circuit, under
Title 28 U.S.C. 1291. has jurisdiction over all appeals flrom
federaldistrict courts. Congress has established this supremacy
and their rulings are recognized throughout history. (See,
Article III. S,1 * U.S. Constitution.)
After filing a PCR application in the state district court
Article 930.8(A)(2), establishing that Seals
upder La.C.Cr.P
should be retroactive in his particular situation, the state
district court denied relief and the Attorney General's Office
gave the opinion that all applications are untimely filed.
In Article 930.8(Afl>(2), it states that there is an exception to
the PCR time-bar; Section (A)(2) states:

24

’The c'Jiaim asserted in the petition is based upon a final
ruling of an appellate court establishing a theretofore
unknown interpretation of constitutional law and petition­
er establishes that this interpretation is retroactively
applicable to his case, and the petition is filed within
one year of the finality of such ruling.*
If by provisional authority Poupart makes a claim that a
court of appeal has given a new constitutional doctrine unknown
to the State, the petition is excepted on time limitations.
(The Louisiana Supreme Court has decided that Poupart has filed
his last untimely application for PCR, This fact is not in
direct question, but argued subjectively.)
Poupart’s PCR judicial officer in the state district court
denied an evidentiary hearing and a counseled and pro se brief
in support of PCR. Poupart initiated a 1983 action against the
Attorney General’s Office and the state district court for sub­
jecting him to a violation of his federally protected rights.
The lower federal courts denied all Poupart’s grievances as
hatred tinder Heck v. Humphrey, (1994).
Today, Poupart questions whether the Seals decision is
applicable to state-prisoners whose convictions and punishments
were indirectly affected.
The first case at law Poupart intends to argue is the deci­
sion of Penry v. Lynaugh. (1989), where this Court held that
State courts must give retroactive effect to a new substantive
rule of constitutional law. Since the state court did not give
Seals a retroactive effect on Poupart’s PCR application, the
state court subjected Poupart to a violation of his rights en­
shrined in the Constitution; First Amendment.
Before Penry was decided, the state appellate court in
Barron v. La. Dept, of Public Safety, (La. App. 2 Cir 1981),
decided that procedural and interpretative laws apply both pro­
spectively and retroactively unless they violate vested rights
or obligations of contracts. The state court viewed the criminal

25

statute of LSA-R.S'. 14i122. as constitutional after a federal
judiciary declared that it violates the First Amendment, With
Penry and Barron, in Mackey v. United States, (1971), this
Court declared that the matters of constitutional interpreta­
tion are beyond the powers of the criminal-lav/ making author­
ity to proscribe. If, it is a state court’s duty to determine
what the legislature creates as law and those powers are restr­
icted on constitutional interpretations then, the state court
subjected Poupart to a violation of a federal right that the
state court could not proscribe after Seals was issued.
It is clear in Yates v. Aiken, (1988), that if a state
collateral proceeding is open to a claim controlled by federal
law, the state court has a duty to grant the relief that fed­
eral law requires; and the state court has the inherent author­
ity to consider Seals retroactive on state collateral review.
Danforth v. Minnesota, (2008).
The strictness of duty is a tort and cognizable on 1983
actions, yet, the prisoner is at this Court’s Bench today seek­
ing a review of Seals and whether its standards should have
been applied by the state district court in the first instance.
Earlier Poupart cited Griffith v. Kentucky, (1987), and ex­
claimed that a ’new' constitutional rule must be applied retro­
active to all cases, state or federal. In the particular case
today Poupart is at the intersection of the abuse of the writ
of habeas corpus and the subjection of a federally protected
right by a state district court whose punishments were prohibit­
ed by a federal judiciary. If the Acts of Congress in Title 28
U'«S. C., 1291, gives the U.S. Court of Appeals Circuit this
jurisdiction then, the state district court not only caused a
violation of federal law, but chose not to adher to imperative
precedents set by this Court (recognizing an action under the
1983 protections) in Penry, Yates. Danforth. & Griffith.
Again, Article VI of the Constitution stapes that all state
judicial officers are bound by oath to support the Constitution;
this article requires these officials to act in their offiicial

26

capacities as does the 1983 provision. The argument to this
Court is did the state district court refuse to give retro­
active effect to a new constitutional rule outside the pre­
cedents of this Cburt and is that new constitutional rule in­
\
escapably retroactive on state collateral review? Yates.
The Fourteenth Amendment states that no State can deprive
a person within its jurisdiction the equal protections of the
law. How is it that two federal courts are answering a griev­
ance with a double-standard and also not allowdng Poupart the
equal protections of the Seals decision?
The Seals decision was created on a 1983 action against
state officials, and yet these prisoners are roaming free in
society while Poupart is at the crossroads of abusing a writ
application and petitioning for a redress of his grievances*
The subject-matter in Poupart*s complaint involved a new quest­
ion of federal law that Heck did not proscribe directly. The
lower federal courts have not settled its issue and this fact
somewhat demands that this Supreme Court grant 'certiorari*
and determine the questions presented to it today.
Although Poupart is unaware of the final decision of this
■Court/ he cannot seem to overcome the PCR denial by the La.
Supreme Court declaring an untimely PCR application although
filed under Article 930.8(A)(2). and the fact that the state
district court chose to disregard a constitutional interpreta­
tion by a federal judiciary. The plaintiff in Seals did not
petition to this Court to affirm the 2018, interpretation of
LS A-R. S . 14 i 12 2,. neither^ did the Attorney General's Office
petition this Court to reverse that decision. Seeing that, the
supremacy of the inferior court in Title 28 U.S.C., 1291, is
exacted and the state district court negligently subjected
Poupart to a violation of his federally protected interests in
the First Amendment.
These facts are evident that Seals should apply to state
collateral reviews because Poupaxt's PCR was controlled by

27

federal law, and the state district \court ignored what federal
law requires. The state court does not have inherent authority
to proscribe what the U.S. Constitution interprets over the
federal judiciary and that fact leaves Poupart imprisoned and
punished for a statute that, by definition and words of this
Court, is unlawful.
May this Court review the Seals decision today in light of
the failing parties to seek this Court’s discretionary review
and rule in favor for the Plaint iff/Petitioner today upon a
granting of certiorari with a writ of false judgment, a writ of
release, and staying the federal mandate, respectively. All
done cognizable with ANR Pipeline Co.t (1984)* and the First
Amendment of the Constitution.
May it so be by the Supreme Minds of these Lands.

CONCLUSION W/ RELIEF SOUGHT
WHEREFORE, Petitioner, Paul Poupart, now concludes this appli­
cation for writ of certiorari and submits these new
contentions according to the Fifrst Amendment of the
U.S. Constitution and Article 1, Sec, 7, of the La.
Constitution, giving him a dignified rightt to write
hisxsentiments on this subject-matter. May all equit­
able relief be afforded him this day. Thank You.
Respectively Filed:
Louisiana Department of Corrections:
Elayn Hunt Correctional Center
Inmate, Paul M. Poupart, 357073
6925 Highway 74, P.0. Box 174
St. Gabriel, Louisiana 70776
225.642.3306

28

